Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     Medicare Carriers’ Policies
     for Mental Health Services




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                        MAY 2002
                      OEI-03-99-00132
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                             EXECUTIVE                      SUMMARY

PURPOSE

           To review coverage criteria and documentation requirements set forth in Medicare carriers’ local
           medical review policies for selected Part B mental health services.


BACKGROUND

           Medicare and its beneficiaries paid an estimated $1.2 billion for Part B mental health services in
           1998. Part B claims for mental health services are processed and paid by Medicare carriers
           that contract with the Centers for Medicare & Medicaid Services (CMS). To date, CMS has
           not established a national coverage policy for all carriers to follow in assessing the
           appropriateness of claims for mental health services. Rather, carriers are permitted to develop
           local medical review policies in accordance with a format published by CMS. These policies
           describe the medical criteria beneficiaries must meet for particular mental health services to be
           considered medically necessary and appropriate, as well as criteria for satisfactory
           documentation of mental health services.

           For this inspection, we collected local medical review policies from Medicare Part B carriers for
           the following mental health services: individual psychotherapy with and without evaluation and
           management, group psychotherapy, pharmacologic management, and psychological testing. We
           systematically reviewed these local policies using a structured review instrument.


FINDINGS

Some carriers did not have local medical review policies for the mental health
services in our review

           A total of nine carriers lacked policies for one or more of the mental health services we
           reviewed. One carrier did not have a local medical review policy for any type of mental health
           service. Three carriers did not have policies addressing group psychotherapy. Another two
           carriers did not have policies for pharmacologic management. An additional three carriers did
           not have local medical review policies for psychological testing.

Not all carriers provided comprehensive and specific coverage criteria in their local
policies for mental health services

           The comprehensiveness and specificity with which carriers addressed the coverage criteria
           outlined in the local medical review policy format varied from one carrier’s policy to the next.

Carriers’ Policies for Mental Health Services           i                                      OEI-03-99-00132
           Variations also existed within individual policies, with explicit coverage requirements for one type
           of mental health service, yet vague requirements for another. Few policies provided utilization
           guidelines for group therapy, pharmacologic management, and psychological testing. In addition,
           few policies indicated covered diagnoses for psychotherapy and psychological testing services.
           While most policies for group therapy and pharmacologic management specified qualified
           providers, policies for individual therapy and psychological testing did not.

Documentation requirements for therapy and pharmacologic management were
also not comprehensive and consistent

           According to CMS’ local medical review policy format, carriers’ policies must establish
           requirements for the documentation of services. Our review revealed that documentation
           requirements set forth for individual and group psychotherapy and pharmacologic management
           were not comprehensively and consistently addressed in carriers’ policies. In contrast, the
           majority of carriers’ policies for psychological testing outlined specific documentation that should
           be included in the patient’s medical record.


RECOMMENDATION

           We believe that all Medicare beneficiaries should have access to medically appropriate mental
           health services, and that providers should adequately document these services. We also believe
           that the quality and comprehensiveness of guidance furnished to mental health service providers
           should not vary depending on which carrier is processing payment for services. The lack of
           comprehensive guidance in local medical review policies may result in inconsistent Medicare
           coverage determinations and inappropriate payments for mental health services. Therefore,

           <	         We recommend that CMS require carriers to strengthen vague or incomplete
                      sections of their local policies for mental health services and ensure that policies
                      adequately address all of the elements specified in the Local Medical Review
                      Policy Format (Medicare Program Integrity Manual, Exhibit 6).

           Comprehensive and detailed policies for mental health services might include:

                      <	          specific documentation instructions requiring that basic elements such as date of
                                  service, diagnosis, symptoms, progress, and name and credentials of
                                  practitioners rendering services be recorded in patients’ medical records;
                      <           specific utilization guidelines such as those pertaining to a reasonable number of
                                  services that may be billed per year; and
                      <           sample progress notes for specific types of mental health services.

           For additional assistance in targeting areas for inclusion in comprehensive policies, we have
           provided tables in Appendix A outlining the information Medicare carriers included in their local
           medical review policies.

Carriers’ Policies for Mental Health Services                 ii                                      OEI-03-99-00132
COMMENTS

           We received comments on the draft report from the Centers for Medicare & Medicaid Services
           and from two professional organizations, the American Association for Geriatric Psychiatry and
           the American Psychiatric Association. The full text of the comments is presented in Appendix E.

CMS Comments

           The CMS concurred with our recommendation and noted that, over the last several years, it has
           instructed Medicare contractors to develop their local medical review policies in an open forum
           and to periodically review these policies to ensure consistency with national Medicare policy and
           changes in payment and operating systems. The CMS stated that it will require that contractors’
           periodic reviews of local medical review policies include strengthening vague or incomplete
           sections of these policies for all services. In addition, CMS will share our report with Medicare
           carriers and instruct them to make sure that their local policies reflect Medicare Program
           Integrity Manual requirements.

Comments of Mental Health Organizations

           Both the American Association for Geriatric Psychiatry and the American Psychiatric
           Association remarked on the need for national standards for coverage and payment of mental
           health services that all Medicare carriers must follow. Consideration of the adoption of national
           standards was outside the scope of our review. However, the organizations’ views about the
           need for a national policy are attached and available for consideration by CMS.

           The organizations expressed concern about our suggestion that carriers might want to include
           specific utilization guidelines for mental health services in their local policies. They believe that
           these types of guidelines may pose a threat to the sickest patients who need more frequent and
           intensive treatment if carriers presume that services beyond the guidelines are medically
           unnecessary. We agree that any utilization guidelines presented in carriers’ policies should not
           be used to impede access to appropriate mental health services.

           In addition, the American Psychiatric Association inquired about the source of the descriptions
           of the mental health service codes provided in Appendix B. We have revised Appendix B to
           reflect the code descriptions in the American Medical Association’s Current Procedural
           Terminology.




Carriers’ Policies for Mental Health Services            iii                                      OEI-03-99-00132
                             TABLE                     OF              CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

           Some Carriers Lacked Policies for the Mental Health Services Reviewed . . . . . . . . . . . . . . . 4


           Not All Carriers Provided Comprehensive and Specific Coverage Criteria . . . . . . . . . . . . . . 4


           Documentation Requirements Weak for Therapy and Pharmacologic Management . . . . . . . . 6


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


           A: Selected LMRP Review Results by Carrier Number . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


           B: Descriptions of Mental Health Services Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


           C: Local Medical Review Policy Format . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


           D: Selected OIG Reports on Medicare Mental Health Services . . . . . . . . . . . . . . . . . . . . . . 24


           E: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37





Carriers’ Policies for Mental Health Services                     iv                                                OEI-03-99-00132
                                           INTRODUCTION

PURPOSE

           To review coverage criteria and documentation requirements set forth in Medicare carriers’ local
           medical review policies for the following Part B mental health services: individual psychotherapy
           with and without evaluation and management, group psychotherapy, pharmacologic
           management, and psychological testing.



BACKGROUND

Mental Illness and Medicare Populations

           As defined by the Office of the Surgeon General, mental illness is “a term that refers collectively
           to all mental disorders. Mental disorders are health conditions that are characterized by
           alterations in thinking, mood, or behavior (or some combination thereof) associated with distress
           and/or impaired functioning.” People of all age groups can be affected by mental illness; and
           individuals in different stages of life may be susceptible to certain kinds of mental disorders.
           Older adults have their own special mental health problems and needs. Fortunately, treatment
           interventions such as psychotherapy and medication can benefit individuals with mental illness
           when tailored to meet the specific needs of each patient.

Medicare Part B Coverage of Mental Health Services

           Medicare and its beneficiaries paid an estimated $1.2 billion for Part B mental health services in
           1998. Mental health services reimbursed by Medicare include psychiatric diagnostic or
           evaluative interview procedures, individual psychotherapy, group psychotherapy, family
           psychotherapy, psychoanalysis, psychological testing, and pharmacologic management. Section
           1862 (a)(1)(A) of the Social Security Act states that all Medicare Part B services, including
           mental health services, must be “reasonable and necessary for the diagnosis or treatment of an
           illness or injury or to improve the functioning of a malformed body member.”

Medicare Carriers and Local Medical Review Policies

           Part B claims for mental health services are processed and paid by health insurance
           organizations, known as Medicare carriers, that contract with the Centers for Medicare &
           Medicaid Services (CMS). Carriers are identified by one or more unique numbers that
           correspond to the jurisdiction(s), usually States or portions of States, for which they process
           Medicare claims. Some carrier organizations have more than one area of jurisdiction, and some
           States have more than one Medicare carrier.

Carriers’ Policies for Mental Health Services          1                                OEI-03-99-00132
           To date, CMS has not established a national coverage policy for all carriers to follow in
           assessing the appropriateness of claims for mental health services. The CMS allows, but does
           not require, carriers to develop their own local medical review policies based on general
           Medicare guidelines. Local policies for mental health services should describe the medical
           criteria beneficiaries must meet for particular services to be considered medically necessary and
           appropriate. Exhibit 6 of the Medicare Program Integrity Manual indicates a general format that
           carriers must use when writing their local policies. The most current format is presented in
           Appendix C. Local policies provide information about coverage, including appropriate
           diagnosis and utilization guidelines; documentation requirements; and coding and billing of
           services.

Documentation of Mental Health Services

           Section 1833 (e) of the Social Security Act requires providers to maintain sufficient
           documentation of the services they render to Medicare beneficiaries in order to support claims
           for reimbursement. When carriers have local policies in place, these policies should specify
           criteria for satisfactory documentation of mental health services. Record-keeping guidelines
           published by the American Psychological Association state that well-documented mental health
           services are critical to patient care. Thorough documentation ensures continuity of care should a
           patient seek treatment from another health care provider for either mental or physical conditions;
           enables mental health professionals to better plan for and monitor treatment; and substantiates
           mental health claims submitted to the Medicare program and other insurers.

Previous OIG Work

           Since 1996 the Office of Inspector General (OIG) has issued a number of reports on mental
           health services provided to Medicare beneficiaries in nursing facilities, hospital outpatient
           departments, partial hospitalization programs, and other outpatient settings. The OIG found that
           many mental health services provided to beneficiaries in these settings were medically
           unnecessary, highly questionable, billed incorrectly, and undocumented or poorly documented.

           In a January 2001 report on psychiatric services in nursing homes, the OIG found that Medicare
           carriers’ local medical review policies addressed psychiatric services in nursing homes, but that
           utilization guidelines were inconsistent and unclear. An OIG report issued in May 2001 revealed
           that Medicare allowed $185 million in 1998 for inappropriate mental health services provided in
           practitioners’ offices, community mental health centers, beneficiaries’ homes, and custodial care
           facilities. A listing of selected OIG reports on Medicare mental health services is provided in
           Appendix D.




Carriers’ Policies for Mental Health Services          2                               OEI-03-99-00132
METHODOLOGY

           We requested 1998 local policies from each of the Medicare Part B carriers for the following
           mental health services: individual psychotherapy with and without evaluation and management,
           group psychotherapy, pharmacologic management, and psychological testing. Descriptions of
           these services are provided in Appendix B.

           We did not receive responses to our request from carriers representing 3 of 57 unique carrier
           numbers. One carrier responded to our request, but stated that they did not have a local policy
           in place for the mental health services in our review. The remaining carriers, representing 53
           unique carrier numbers, submitted either a single policy covering all of the Part B mental health
           services under review, or separate policies for each type of mental health service. We created a
           structured review instrument and systematically reviewed the local policies, focusing on coverage
           criteria and documentation requirements. We focused our review on these elements as they
           make up the essence of local medical review policies.

           We recorded the results of our analysis of local policies in terms of unique carrier numbers.
           However, to improve the readability of this report, we will refer to these unique carrier numbers
           as “carriers.” Detailed tables containing all of the analysis results presented in this report are
           provided in Appendix A.




           This inspection was conducted in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.




Carriers’ Policies for Mental Health Services          3                                OEI-03-99-00132
                                                   FINDINGS


Some carriers did not have local medical review policies for
the mental health services in our review

           A total of nine carriers lacked policies for one or more of the mental health services we
           reviewed. One carrier did not have a local medical review policy for any type of mental health
           service. Three carriers did not have policies addressing group psychotherapy. Another two
           carriers did not have policies for pharmacologic management. An additional three carriers did
           not have local medical review policies for psychological testing.

           Table 1. Nine Carriers Lacked Policies For One Or More Mental Health Services


                          Medicare Part B Carrier                                  Mental Health Services Reviewed
                                                                        (X indicates that carrier had policy covering the service)

                                                                      Individual      Group       Pharmacologic       Psychological
            Number Name                                   State        Therapy       Therapy       Management           Testing

            00870       Rhode Island Blue Shield          RI

            00650       Kansas Blue Shield                KS              X                              X                     X

            00651       Kansas Blue Shield                MO              X                              X                     X

            00655       Kansas Blue Shield                NE              X                              X                     X

            00590       Florida Blue Shield               FL              X             X                                      X

            00880       Palmetto GBA                      SC              X             X                                      X

            16360       Nationwide                        OH              X             X                X

            16510       Nationwide                        WV              X             X                X

            31140       National Heritage Insurance Co.   CA              X             X                X

           Source: OEI analysis of 1998 local medical review policies collected between September and December 1999.




Not all carriers provided comprehensive and specific
coverage criteria in their local policies for mental health
services

           The comprehensiveness and specificity with which carriers addressed coverage criteria for the
           mental health services we reviewed varied from one carrier’s local medical review policy to the
           next. Variations also existed within individual policies, with explicit coverage requirements for
           one type of mental health service, yet vague requirements for another.


Carriers’ Policies for Mental Health Services                     4                                          OEI-03-99-00132
Few policies provided utilization guidelines for group therapy, pharmacologic
management, and psychological testing

           The CMS’ local medical review policy format (provided in Appendix C) suggests that carriers’
           policies describe the typical usage of covered services. However, few policies delineated
           utilization guidelines for group psychotherapy, pharmacologic management, and psychological
           testing services. Four policies stated the number of group psychotherapy services that may be
           billed per year. Three policies stated the number of pharmacologic management services that
           may be billed per year. Nine policies specified the number of hours that may be billed per
           beneficiary per psychological testing service, while five policies specified the number of
           psychological testing services that may be provided in a 12-month period.

           In contrast, the majority (about two-thirds) of local policies we reviewed provided utilization
           guidelines for individual psychotherapy services. These policies specified that prolonged
           treatment with individual psychotherapy may be subject to medical review, with most policies
           defining “prolonged treatment” as treatment in excess of 20 sessions per episode of illness. One
           individual psychotherapy policy provided greater detail, basing utilization guidelines on additional
           criteria such as place of service (inpatient or outpatient) and whether a patient’s illness is chronic
           or acute.

Few policies clearly indicated covered diagnoses for psychotherapy and
psychological testing services

           The local medical review policy format published by CMS states that policies must contain a list
           of diagnosis codes for which a service is generally covered. Although local medical review
           policies for mental health services usually contained a general list of covered diagnosis codes,
           only eight policies clearly indicated which diagnoses are associated with each type of mental
           health service we reviewed. However, the typical policy governing pharmacologic management
           did specify a range of diagnosis codes that are covered for pharmacologic management services.

Most policies for group therapy and pharmacologic management specified
qualified providers, unlike individual therapy and psychological testing policies

           While the local medical review policy format does not explicitly state that carriers’ policies must
           list the types of providers qualified to render services, many local policies specified the types of
           providers that are permitted to render group psychotherapy and pharmacologic management
           services. These policies generally stated that group psychotherapy “must be led by a person
           authorized by the state to perform this service,” but also provided a list of practitioner types that
           are usually qualified to perform group therapy, including psychiatrists, psychologists, clinical
           social workers, nurse practitioners, and clinical nurse specialists. Most policies specified that
           pharmacologic management is a physician service, with exceptions for other types of
           practitioners that may be licensed by individual States to prescribe medication, such as nurse
           practitioners, advanced practice nurses, and physician assistants.


Carriers’ Policies for Mental Health Services            5                                OEI-03-99-00132
           In contrast to group therapy and pharmacologic management services, local medical review
           policies usually did not identify the specific types of providers that are permitted to render
           individual psychotherapy and psychological testing services. Typical policies for individual
           psychotherapy merely stated that the service “must be performed by a person authorized by the
           state to perform psychotherapy.” Only one-quarter of policies stipulated that clinical
           psychologists and licensed clinical social workers are not qualified to render individual
           psychotherapy with an evaluation and management component, a service clearly outside the
           scope of practice for these practitioners. For psychological testing, nine policies specified the
           types of providers that may render these services.



Documentation requirements for therapy and pharmacologic
management were also not comprehensive and consistent

           Our review revealed that documentation requirements set forth for individual and group
           psychotherapy and pharmacologic management were not comprehensively and consistently
           addressed in carriers’ policies. In contrast, the majority of carriers’ policies for psychological
           testing outlined specific documentation that should be included in the patient’s medical record.

           According to CMS’ local medical review policy format, carriers’ policies must establish
           requirements for the documentation of services. Documentation should include “specific
           information from the medical records or other pertinent information that would be required to
           justify the item/service.”

           Individual and Group Psychotherapy. Many local medical review policies did not address
           the documentation of some very basic elements of psychotherapy services. Less than half of
           policies for individual and group psychotherapy specified that a patient’s diagnosis should be
           documented in the medical record. Very few carriers stipulated that the date of an individual or
           group psychotherapy session should be recorded in patients’ medical records. Just over half of
           policies for individual psychotherapy required documentation that treatment is expected to
           stabilize patients with chronic illness.
           Forty-two percent of policies for group psychotherapy contained a similar requirement.

           However, local medical review policies for individual and group psychotherapy services did
           provide consistent documentation requirements with respect to other important elements. For
           example, almost all policies for both individual and group psychotherapy required documentation
           of the goals of therapy and the estimated duration of treatment. As individual psychotherapy is
           billed in increments of time, most local medical review policies for this service stipulated that the
           amount of face-to-face time spent with the patient in an individual therapy session should be
           documented.




Carriers’ Policies for Mental Health Services           6                                 OEI-03-99-00132
           Pharmacologic Management. Most policies for pharmacologic management either did not
           address documentation of pharmacologic management services at all, or did so using very vague
           language. Of the 53 carrier policies reviewed, only 9 policies contained explicit standards for
           the documentation of pharmacologic management services. Two of these policies provided a
           detailed list of elements that should be documented for this service, including “the patient’s
           diagnosis, pertinent signs and symptoms, the medication prescribed, side effects, related
           monitoring of laboratory tests if appropriate, responses to treatment, and any orders for changes
           in the regimen.” Another policy provided examples of progress notes that contain appropriate
           documentation of pharmacologic management services.

           Psychological Testing. Overall, most local medical review policies for psychological testing
           services provided detailed documentation requirements. For example, over
           three-quarters of policies stated that a patient’s medical record must indicate the presence or
           signs of mental illness that necessitate psychological testing, the specific psychological tests
           performed, and the psychological test results and/or test scores. Most policies also required
           psychological testing providers to prepare a report interpreting a patient’s test results. In
           addition, the majority of carriers’ policies required documentation of the time involved in
           administering, scoring, interpreting, and reporting psychological test results.




Carriers’ Policies for Mental Health Services          7                                OEI-03-99-00132
                                     RECOMMENDATION

           We believe that all Medicare beneficiaries should have access to medically appropriate mental
           health services, and that providers should adequately document these services. We also believe
           that the quality and comprehensiveness of guidance furnished to mental health service providers
           should not vary depending on which carrier is processing payment for services. The lack of
           comprehensive guidance in local medical review policies may result in inconsistent Medicare
           coverage determinations and inappropriate payments for mental health services. Therefore,

           <	         We recommend that CMS require carriers to strengthen vague or incomplete
                      sections of their local policies for mental health services and ensure that policies
                      adequately address all of the elements specified in the Local Medical Review
                      Policy Format (Medicare Program Integrity Manual, Exhibit 6).

           Comprehensive and detailed policies for mental health services might include:

                      <	         specific documentation instructions requiring that basic elements such as date of
                                 service, diagnosis, symptoms, progress, and name and credentials of
                                 practitioners rendering services be recorded in patients’ medical records;
                      <          specific utilization guidelines such as those pertaining to a reasonable number of
                                 services that may be billed per year; and
                      <          sample progress notes for specific types of mental health services.

           For additional assistance in targeting areas for inclusion in comprehensive policies, we have
           provided tables in Appendix A outlining the information Medicare carriers included in their local
           medical review policies.



COMMENTS

           We received comments on the draft report from the Centers for Medicare & Medicaid Services
           and from two professional organizations, the American Association for Geriatric Psychiatry and
           the American Psychiatric Association. The full text of the comments is presented in Appendix E.

CMS Comments

           The CMS concurred with our recommendation and noted that, over the last several years, it has
           instructed Medicare contractors to develop their local medical review policies in an open forum
           and to periodically review these policies to ensure consistency with national Medicare policy and
           changes in payment and operating systems. The CMS stated that it will require that contractors’



Carriers’ Policies for Mental Health Services                8                                OEI-03-99-00132
           periodic reviews of local medical review policies include strengthening vague or incomplete
           sections of these policies for all services. In addition, CMS will share our report with Medicare
           carriers and instruct them to make sure that their local policies reflect Medicare Program
           Integrity Manual requirements.

Comments of Mental Health Organizations

           Both the American Association for Geriatric Psychiatry and the American Psychiatric
           Association remarked on the need for national standards for coverage and payment of mental
           health services that all Medicare carriers must follow. Consideration of the adoption of national
           standards was outside the scope of our review. However, the organizations’ views about the
           need for a national policy are attached and available for consideration by CMS.

           The organizations expressed concern about our suggestion that carriers might want to include
           specific utilization guidelines for mental health services in their local policies. They believe that
           these types of guidelines may pose a threat to the sickest patients who need more frequent and
           intensive treatment if carriers presume that services beyond the guidelines are medically
           unnecessary. We agree that any utilization guidelines presented in carriers’ policies should not
           be used to impede access to appropriate mental health services.

           In addition, the American Psychiatric Association inquired about the source of the descriptions
           of the mental health service codes provided in Appendix B. We have revised Appendix B to
           reflect the code descriptions in the American Medical Association’s Current Procedural
           Terminology.




Carriers’ Policies for Mental Health Services            9                                 OEI-03-99-00132
                                                                                    APPENDIX A



                  Selected LMRP Review Results by Carrier Number



           Appendix A contains four tables, one for each of the following types of mental health services
           included in our inspection: individual psychotherapy with and without evaluation and
           management, group psychotherapy, pharmacologic management, and psychological testing.
           These tables display selected results of our analysis of carriers’ local medical review policies, as
           discussed in the findings of this report. We collected local medical review policies for the year
           1998 from the Medicare Part B carriers between September and December 1999.




Carriers’ Policies for Mental Health Services           10                                OEI-03-99-00132
                                                                                                                                            APPENDIX A

                                                      T A B L E 1: I N D I V I D U A L P S Y C H O T H E R A P Y
   Carrier                      Utilization              Diagnosis                     Qualified Providers                                 Documentation Requirements
                                      Prolonged          How LMRP             How LMRP           Certain Provider Types                    Estimated    Therapy Will                Date
                    Guidelines     Treatment = More   Specified Covered   Specified Qualified    Cannot Bill Evaluation   Therapy Time Duration of        Stabilize       Patient    of
Number State         Provided      Than 20 Sessions      Diagnoses         Provider Types       and Management Codes       Goals   Spent   Treatment   Chronic Illness   Diagnosis Session
 00510       AL         X                     X              G                    A                                         X       X         X
 00511   GA             X                     X              G                    A                                         X       X         X
 00520   AR             X                     X              G                    A                                         X       X                        X              X
 00521   NM             X                     X              G                    A                                         X       X         X              X              X
 00522   OK             X                     X              G                    A                                         X       X         X              X              X
 00523   MO             X                     X              G                    A                                         X       X         X              X
 00528       LA         X                     X              G                    A                          X              X       X         X              X              X
 00590       FL                                              S                    L                                         X       X         X              X              X
 00630       IN                                              S                    A                                         X       X         X              X
 00650   KS                                                  S                                                              X       X                                                X
 00651   MO                                                  S                                                              X       X                                                X
 00655   NE                                                  S                                                              X       X                                                X
 00660   KY                                                  S                    A                                         X       X         X              X
 00751   MT             X                                    G                    A                                         X       X         X                             X
 00801   NY                                                  G                    L                          X              X       X
 00803   NY                                                  G                    L                          X              X       X
 00820   ND             X                     X              G                    A                                         X       X         X
 00824   CO             X                     X              G                    A                                         X       X         X
 00825   WY             X                     X              G                    A                                         X       X         X
 00826       IA         X                     X              G                    A                                         X       X         X
 00831   AK             X                     X              G                    A                                         X       X         X
 00832       AZ         X                     X              G                    A                                         X       X         X
 00834   NV             X                     X              G                    A                                         X       X         X
 00835   OR             X                     X              G                    A                                         X       X         X
 00836   WA             X                     X              G                    A                                         X       X         X
 00860       NJ         X                     X              S                    A                                         X       X         X              X              X
 00865   PA             X                     X              S                    A                                         X       X         X              X              X
 00870       RI         NP                NP                 NP                   NP                      NP                NP      NP        NP             NP            NP        NP
 00880   SC                                                  S                    L                                         X       X                                       X        X
 00889   SD             X                     X              G                    A                                         X       X         X
 00900       TX                                                                   A                                         X       X         X              X
 00901   MD                                                                       A                                         X       X         X              X
 00902   DE             X                     X              S                    A                                         X       X         X              X              X
 00903   DC             X                     X              S                    A                                         X       X         X              X              X
 00910   UT                                                  S                    A                                         X       X         X
 00951       WI         X                                    G                    A                          X              X       X         X              X              X
 00952       IL         X                     X              G                    A                                         X       X         X
 00953       MI         X                     X              G                    A                                         X       X         X
 02050   CA             X                                    S                    A                                                 X                                       X
 05130       ID         X                     X              G                    A                                         X       X         X              X
 05440   TN             X                     X              G                    A                                         X       X         X              X              X
 05535   NC             X                     X              G                    A                                         X       X         X              X
 10230   CT                                                  S                    L                                         X       X
 10240   MN             X                     X                                   A                                         X       X         X              X
 10250   MS             X                     X                                   A                                         X       X         X              X
 10490   VA             X                                    S                    A                                         X                 X              X              X        X
 14330   NY                                                  G                    L                          X              X       X
 16360   OH                                                  S                    A                          X              X       X         X              X              X        X
 16510   WV                                                  S                    A                          X              X       X         X              X              X        X
 31140   CA                                                  S                                               X              X       X         X                                      X
 31142   ME             X                                                                                    X              X                 X              X              X
 31143   MA             X                                                                                    X              X                 X              X              X
 31144   NH             X                                                                                    X              X                 X              X              X
 31145       VT         X                                                                                    X              X                 X              X              X

KEY:	             X=Policy contained column criteria; Shaded Box=Policy did not contain column criteria; NP=No policy; G=Policy specified
                  covered diagnoses in general way; S=Policy specified covered diagnosis in clear and specific way; A=Qualified provider types
                  not listed, policy only specified that providers must be authorized by State; L=Policy listed qualified provider types




Carriers’ Policies for Mental Health Services                                                   11                                                     OEI-03-99-00132
                                                                                                            APPENDIX A

                                     T A B L E       2:   G R O U P         P S Y C H O T H E R A P Y
    Carrier            Utilization          Diagnosis        Qualified Providers                   Documentation Requirements
                   Specified Number of      How LMRP            Specific List of               Estimated                    Therapy Will      Date
                   S ervi ces That May   Specified Covered         Qualified       Therapy    Duration of     Patient         Stabilize        of
Number State        Be Billed Per Year      Diagnoses          Provider Types       Goals      Treatment    Diagnosis      Chronic Illness   Session
  00510    AL                                   G                      X               X           X
  00511    GA                                   G                      X               X           X
  00520    AR                                   G                      X               X                         X                X
  00521    NM                                   G                      X               X           X             X                X
  00522    OK                                   G                      X               X           X             X                X
  00523    MO                                   G                      X               X           X                              X
  00528    LA                                   G                      X               X           X             X                X
  00590    FL                                   S                      X               X           X             X
  00630       IN                                S                      X               X           X                              X
  00650    KS              NP                   NP                    NP              NP          NP            NP               NP            NP
  00651    MO              NP                   NP                    NP              NP          NP            NP               NP            NP
  00655    NE              NP                   NP                    NP              NP          NP            NP               NP            NP
  00660    KY                                   S                      X               X           X                              X
  00751    MT                                   G                      X               X           X             X
  00801    NY                                   G                      X               X
  00803    NY                                   G                      X               X
  00820    ND                                   G                      X               X           X
  00824    CO                                   G                      X               X           X
  00825    WY                                   G                      X               X           X
  00826       IA                                G                      X               X           X
  00831    AK                                   G                      X               X           X
  00832    AZ                                   G                      X               X           X
  00834    NV                                   G                      X               X           X
  00835    OR                                   G                      X               X           X
  00836    WA                                   G                      X               X           X
  00860    NJ                                   S                      X               X           X             X                X
  00865    PA                                   S                      X               X           X             X                X
  00870       RI           NP                   NP                    NP              NP          NP            NP               NP            NP
  00880    SC                                   S                      X               X                         X                             X
  00889    SD                                   G                      X               X           X
  00900    TX                                                          X               X           X                              X
  00901    MD                                                          X               X           X                              X
  00902    DE                                   S                      X               X           X             X                X
  00903    DC                                   S                      X               X           X             X                X
  00910    UT                                   S                      X               X           X
  00951    WI                                   G                      X               X           X             X                X
  00952       IL                                G                      X               X           X
  00953    MI                                   G                      X               X           X
  02050    CA                                   S                      X                                         X
  05130       ID                                G                                      X           X                              X
  05440    TN                                   G                      X               X           X             X                X
  05535    NC                                   G                      X               X           X                              X
  10230    CT                                   S                      X               X                         X
  10240    MN                                                          X               X           X                              X
  10250    MS                                                          X               X           X                              X
  10490    VA                                   S                                      X           X             X                X            X
  14330    NY                                   G                      X               X
  16360    OH                                   S                                      X           X             X                X            X
  16510    WV                                   S                                      X           X             X                X            X
  31140    CA                                   S                      X                                         X
  31142    ME               X                                                          X           X             X
  31143    MA               X                                                          X           X             X
  31144    NH               X                                                          X           X             X
  31145    VT               X                                                          X           X             X



KEY:	      X=Policy contained column criteria; Shaded Box=Policy did not contain column criteria; NP=No policy; G=Policy specified
           covered diagnoses in general way; S=Policy specified covered diagnosis in clear and specific way




Carriers’ Policies for Mental Health Services                              12                                           OEI-03-99-00132
                         T A B L E       3:    P H A R M A C O L O G I C                  M A N A G E M E N T
    Carrier             Utilization              Diagnosis            Qualified Providers              Documentation Requirements
                   Specified Number of           How LMRP                  How LMRP                    Addressed             Provided Explicit
                    Services That May         Specified Covered        Specified Qualified       Documentation Using          Documentation
Number    State     Be Billed Per Year            Diagnoses              Provider Types             Vague Language              Guidelines
 00510        AL                                      S                        PO                          X
 00511        GA                                      S                        PO                          X
 00520        AR                                      S                        PO                          X
 00521        NM                                      S                        PO                          X
 00522        OK                                      S                        PO                          X
 00523        MO                                      S                         P                          X
 00528        LA                                      S                        PO                          X
 00590        FL            NP                       NP                        NP                          NP                       NP
 00630        IN                                      S                        PO
 00650        KS             X                        S                                                                              X
 00651        MO             X                        S                                                                              X
 00655        NE             X                        S                                                                              X
 00660        KY                                      S                        PO
 00751        MT                                      G                        PO                          X
 00801        NY                                      S                        PO                          X
 00803        NY                                      S                        PO                          X
 00820        ND                                      S                        PO                          X
 00824        CO                                      S                        PO                          X
 00825        WY                                      S                        PO                          X
 00826        IA                                      S                        PO                          X
 00831        AK                                      S                        PO                          X
 00832        AZ                                      S                        PO                          X
 00834        NV                                      S                        PO                          X
 00835        OR                                      S                        PO                          X
 00836        WA                                      S                        PO                          X
 00860        NJ                                      S                        PO                                                    X
 00865        PA                                      S                        PO                                                    X
 00870        RI            NP                       NP                        NP                          NP                       NP
 00880        SC            NP                       NP                        NP                          NP                       NP
 00889        SD                                      S                        PO                          X
 00900        TX                                      S                        PO                          X
 00901        MD                                      S                        PO                          X
 00902        DE                                      S                        PO                          X
 00903        DC                                      S                        PO                          X
 00910        UT                                      S                        PO                          X
 00951        WI                                      S                        PO                          X
 00952        IL                                      S                        PO                          X
 00953        MI                                      S                        PO                          X
 02050        CA                                      S                         P
 05130        ID                                      S                        PO                          X
 05440        TN                                      S                        PO                          X
 05535        NC                                      S                        PO                          X
 10230        CT                                      S                        PO                                                    X
 10240        MN                                      S                        PO                          X
 10250        MS                                      S                        PO                          X
 10490        VA                                      S
 14330        NY                                      S                        PO                          X
 16360        OH                                      S                         P                                                    X
 16510        WV                                      S                         P                                                    X
 31140        CA                                      S                         P                                                    X
 31142        ME
 31143        MA
 31144        NH
 31145        VT


KEY:      X=Policy contained column criteria; Shaded Box=Policy did not contain column criteria; NP=No policy; G=Policy specified
          covered diagnoses in general way; S=Policy specified covered diagnosis in clear and specific way; PO=Policy specified
          physicians and other provider types licensed by State to prescribe medication; P=Policy only specified physicians



                                                                      13
                                                                                                                                     APPENDIX A

                                                   T A B L E 4: P S Y C H O L O G I C A L T E S T I N G
   Carrier                          Utilization                        Diagnosis        Qualified Providers                       Documentation Requirements
                  Specified Number of       Specified Number of        How LMRP           Indicated Type Or       Presence        Specific   Test Results      Report        Time
                   Hours That May Be       Services That May Be    Specified Covered       Types That May        Or Signs of       Tests        and/or       Interpreting   Involved
Number State        Billed Per Service      Provided Per Year          Diagnoses           Render Service       Mental Illness   Performed   Test Scores     Test Results In Testing
 00510       AL                                                            G                                          X              X            X               X            X
 00511   GA                                                                G                                          X              X            X               X            X
 00520   AR                                                                G                                          X              X            X               X            X
 00521   NM                                                                G                                          X              X            X               X            X
 00522   OK                                                                G                                          X              X            X               X            X
 00523   MO                                                                G                                          X              X            X               X            X
 00528       LA                                                            G                                          X              X            X               X            X
 00590       FL                                                                                                                      X                            X            X
 00630       IN             X                                              S                                                         X            X               X            X
 00650   KS                                                                S                                                         X            X               X            X
 00651   MO                                                                S                                                         X            X               X            X
 00655   NE                                                                S                                                         X            X               X            X
 00660   KY                 X                                              S                                          X              X            X               X            X
 00751   MT                                                                G                                          X              X            X               X            X
 00801   NY                                                                G                                          X              X            X               X            X
 00803   NY                                                                G                                          X              X            X               X            X
 00820   ND                                                                G                                          X              X            X               X            X
 00824   CO                                                                G                                          X              X            X               X            X
 00825   WY                                                                G                                          X              X            X               X            X
 00826       IA                                                            G                                          X              X            X               X            X
 00831   AK                                                                G                                          X              X            X               X            X
 00832   AZ                                                                G                                          X              X            X               X            X
 00834   NV                                                                G                                          X              X            X               X            X
 00835   OR                                                                G                                          X              X            X               X            X
 00836   WA                                                                G                                          X              X            X               X            X
 00860       NJ             X                                              S                                          X              X            X               X            X
 00865   PA                 X                                              S                                          X              X            X               X            X
 00870       RI            NP                       NP                     NP                    NP                  NP             NP            NP             NP           NP
 00880   SC                                                                                       X                   X
 00889   SD                                                                G                                          X              X            X               X            X
 00900   TX                                                                                                           X              X            X               X            X
 00901   MD                                                                                                           X              X            X               X            X
 00902   DE                                                                                                           X              X            X               X            X
 00903   DC                                                                                                           X              X            X               X            X
 00910   UT                                                                S                                          X              X            X               X            X
 00951       WI                                     X                      S                      X                   X              X            X               X            X
 00952       IL                                                            G                                          X              X            X               X            X
 00953       MI                                                            G                                          X              X            X               X            X
 02050   CA                                                                S                      X                                  X                                         X
 05130       ID                                                            G                                          X              X            X               X            X
 05440   TN                                                                G                                          X              X            X               X            X
 05535   NC                                                                G                                          X              X            X               X            X
 10230   CT                                                                S                      X                   X              X            X               X
 10240   MN                                                                                                           X              X            X               X            X
 10250   MS                                                                                                           X              X            X               X            X
 10490   VA                 X                                              S                      X                   X                           X               X            X
 14330   NY                                                                G                                          X              X            X               X            X
 16360   OH                NP                       NP                     NP                    NP                  NP             NP            NP             NP           NP
 16510   WV                NP                       NP                     NP                    NP                  NP             NP            NP             NP           NP
 31140   CA                NP                       NP                     NP                    NP                  NP             NP            NP             NP           NP
 31142   ME                 X                       X                      S                      X
 31143   MA                 X                       X                      S                      X
 31144   NH                 X                       X                      S                      X
 31145   VT                 X                       X                      S                      X


KEY:          X=Policy contained column criteria; Shaded Box=Policy did not contain column criteria; NP=No policy; G=Policy specified covered diagnoses in
              general way; S=Policy specified covered diagnosis in clear and specific way




Carriers’ Policies for Mental Health Services                                           14                                                      OEI-03-99-00132
                                                                                        APPENDIX B



                   Descriptions of Mental Health Services Reviewed

Individual Psychotherapy

90804	                Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                      office or outpatient facility, approximately 20 to 30 minutes face-to-face with the patient.

90805                 Same as procedure 90804, but with medical evaluation and management services.

90806	                Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                      office or outpatient facility, approximately 45 to 50 minutes face-to-face with the patient.

90807                 Same as procedure 90806, but with medical evaluation and management services.

90808	                Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                      office or outpatient facility, approximately 75 to 80 minutes face-to-face with the patient.

90809                 Same as procedure 90808, but with medical evaluation and management services.

Group Psychotherapy

90853                 Group psychotherapy (other than of a multiple-family group).

Pharmacologic Management


90862	                Pharmacologic management, including prescription, use, and review of medication with
                      no more than minimal medical psychotherapy.

Psychological Testing

96100	                Psychological testing (includes psychodiagnostic assessment of personality,
                      psychopathology, emotionality, intellectual abilities, e.g., WAIS-R (Wechsler Adult
                      Intelligence Scale Revised), Rorschach, MMPI (Minnesota Multiphasic Personality
                      Inventory)) with interpretation and report, per hour.




Carriers’ Policies for Mental Health Services             15                                OEI-03-99-00132
                                                                               APPENDIX C


                        Local Medical Review Policy Format



 Medicare Program Integrity Manual

 Exhibit 6 - LMRP Format - (Rev. 14, 09-26-01)



 Contractor's Policy Number 	                   Enter a unique policy identifier that the policy
                                                author designates. The numbering system
                                                is entirely up to the contractor and is used to
                                                catalog the policy for internal use.

 Contractor Name 	                              The contractor name is the proper name assigned
                                                by CMS and used in the Contractor Report of
                                                Workload Data (CROWD) system. This is a
                                                mandatory field.

 Contractor Number	                             The contractor number is the proper name
                                                assigned by CMS and used in the CROWD
                                                system. Include only one contractor number. This
                                                is a mandatory field.

 Contractor Type	                               Indicate if this policy is for a fiscal intermediary
                                                (FI), carrier, regional home health intermediary
                                                (RHHI) or durable medical equipment regional
                                                carrier (DMERC). Select only one contractor
                                                type. This is a mandatory field.

 LMRP Title 	                                   Enter a brief, one line description of the topic or
                                                subject matter of the policy. The subject identifies
                                                the name of the medical policy. This field is used in
                                                the Keyword Search function for researching and
                                                drafting policies. To improve identifying your
                                                policies, try not to use special characters such as
                                                parentheses, slashes, and ellipses in this field. Only
                                                use these characters when absolutely necessary.
                                                This is a mandatory field.




Carriers’ Policies for Mental Health Services   16                               OEI-03-99-00132
                                                                             APPENDIX C


 AMA CPT Copyright Statement 	                  Include the following statement in each LMRP that
                                                contains CPT codes. "CPT codes, descriptions
                                                and other data only are copyright 2001 American
                                                Medical Association (or such other data of
                                                publication of CPT). All Rights Reserved.
                                                Applicable FARS/DFARS Clauses Apply."

 CMS National Coverage Policy 	                 Indicate any associated CMS National Coverage
                                                Determination or Coverage Provision in an
                                                Interpretive Manual. Include a description if a
                                                National Coverage Determination or Provision is
                                                being expanded, adds greater clarification and/or
                                                codes. This is a mandatory field.

 Primary Geographic Jurisdiction	               The geographical area to which the LMRP will
                                                apply. For carriers and DMERCs, this jurisdiction
                                                is usually established based upon the contractor
                                                number. For RHHIs and FIs, this jurisdiction is
                                                established based upon the contractor number but
                                                may not include all States within CMS established
                                                jurisdiction. For example, an FI with the primary
                                                geographic jurisdiction of Connecticut, Michigan
                                                and New York may only develop a LMRP for
                                                Connecticut and not Michigan or New York.
                                                Contractors must indicate the primary jurisdiction
                                                to which this policy applies. This is a mandatory
                                                field.

 Secondary Geographic Jurisdiction 	            RHHIs and FIs may also have a secondary
                                                geographic jurisdiction for those facilities that
                                                nominate to have the FI or RHHI process their
                                                claims. The secondary geographic jurisdiction is
                                                the State in which the provider is located. Include
                                                all States for the providers to which this policy
                                                applies.

 CMS Region 	                                   List the region that retains oversight of the
                                                Medicare contractor's LMRP development
                                                process. Include only one region. This is a
                                                mandatory field.




Carriers’ Policies for Mental Health Services   17                             OEI-03-99-00132
                                                                              APPENDIX C


 CMS Consortium                                 List the consortium for the regional office listed
                                                above. Include only one consortium. This is a
                                                mandatory field.

 DMERC Region LMRP Covers                       List the region that this policy covers. This is a
                                                mandatory field for DMERCs only.

 Original Policy Effective Date                 List the original date this policy became effective.
                                                For example, all policy rules, requirements and
                                                limitations became effective for services performed
                                                on and after this date. The format is
                                                MM/DD/YYYY. This is a mandatory field.

 Original Policy Ending Date                    The date for which the policy is no longer effective.
                                                For example, all policy rules,
                                                requirements and limitations within this policy are
                                                no longer effective for services
                                                performed after this date. This date may be the
                                                same as, but not before the final
                                                revision ending effective date. The format is
                                                MM/DD/YYYY. This is a mandatory field
                                                for terminated policies.

 Revision Effective Date                        The beginning date for which a revision becomes
                                                effective. For example, all policy
                                                rules, requirements and limitations within this
                                                revision are effective for services performed after
                                                this date. The format is MM/DD/YYYY. This is a
                                                mandatory field for revised policies.

 Revision Ending Date                           The date for which this revision is no longer
                                                effective. For example, all policy rules,
                                                requirements, and limitations within this revision are
                                                no longer effective for services performed after this
                                                date. The format is MM/DD/YYYY. This is a
                                                mandatory field if a revised policy is itself
                                                subsequently revised or if a revised policy is
                                                terminated without a subsequent revision.




Carriers’ Policies for Mental Health Services   18                              OEI-03-99-00132
                                                                             APPENDIX C


 LMRP Description 	                             Characterize or define the item/service and explain
                                                how it operates or is performed.
                                                Use this field to enhance the policy subject. This is
                                                a mandatory field.

 Indications and Limitations of                 List the general indications for which an
 Coverage and/or Medical Necessity 	            item/service is covered and/or considered
                                                reasonable and necessary. Also, list limitations
                                                such as least costly alternative reductions. This is a
                                                mandatory field.

 CPT/HCPCS Section and                          Define the CPT/HCPCS section to which the
 Benefit Category 	                             policy applies. Also state the appropriate benefit
                                                category. For example: physician services, DME,
                                                diagnostic services, prosthetic devices, evaluation
                                                and management, medicine, pathology and
                                                laboratory, radiology, nuclear, ultrasound and
                                                surgery. This is a mandatory field.

 Type of Bill Code 	                            Enter the related type of bill codes for the item,
                                                service or procedure. Type of bill codes apply to
                                                FIs only. This is a mandatory field for FIs and
                                                RHHIs.

 Revenue Codes 	                                Enter the related revenue code for the item, service
                                                or procedure. Revenue codes apply to FIs only.
                                                This is a mandatory field for FIs and RHHIs.

 CPT/HCPCS Codes 	                              Enter the related HCPCS codes and any
                                                appropriate modifiers for the item/service. You
                                                may list the codes as a range. A policy may be
                                                associated with one or many HCPCS codes
                                                or a combination of all these. This is a mandatory
                                                field.

 Not Otherwise Classified (NOC) 	               Use this field in the absence of HCPCS codes. List
                                                the NOC code and the classified codes associated
                                                text. This is a mandatory field.




Carriers’ Policies for Mental Health Services   19                              OEI-03-99-00132
                                                                             APPENDIX C


 ICD-9 Codes that Support                       List the ICD-9 codes or code ranges, using
 Medical Necessity 	                            maximum specificity, for which the item/service is
                                                generally covered, and/or considered medically
                                                necessary. A policy can be associated with one or
                                                many diagnosis codes, one or many ranges of
                                                diagnosis codes, or a combination of all of these.
                                                This is a mandatory field.

 Diagnoses that Support Medical Necessity 	     In the absence of ICD-9 codes, include the
                                                medical diagnoses that support the medical
                                                necessity for the item, service or procedure.

 ICD-9 Codes that DO NOT Support                List the ICD-9 codes that do not support the
 Medical Necessity 	                            medical necessity of the service. Use this field
                                                when developing policies using an "exclusionary"
                                                approach in writing LMRP for which there are
                                                only limited exceptions of ICD-9 codes that would
                                                not support the medical necessity of the service.

 Diagnoses that DO NOT Support                  In the absence of ICD-9 codes that do not support
 Medical Necessity 	                            medical necessity, include the
                                                medical diagnoses that will not support medical
                                                necessity. Use this field when developing policies
                                                using an "exclusionary" approach in writing LMRP
                                                for which there are only limited exceptions of
                                                diagnoses that would not support the medical
                                                necessity of the service.

 Reasons for Denials 	                          Indicate the specific situations under which an
                                                item/service will always be denied. Also, list the
                                                reasons for denial such as "investigational,
                                                cosmetic, routine screening, dental, program
                                                exclusion, otherwise not covered, or never
                                                reasonable and necessary." This is a mandatory
                                                field.




Carriers’ Policies for Mental Health Services   20                             OEI-03-99-00132
                                                                              APPENDIX C


 Noncovered ICD-9 Codes	                        If an item/service is always denied for a certain
                                                ICD-9 code, list the ICD-9 code(s) or code
                                                range(s) and narrative that are never covered. A
                                                policy can be associated with one or many
                                                noncovered diagnosis codes, one or many ranges
                                                of diagnosis codes or a combination of all of these.

 Noncovered Diagnosis                           List the medical diagnoses that are not covered.

 Coding Guidelines	                             Describe the relationships between codes and
                                                define how items/services are billed. Include
                                                information about the units of service, place of
                                                service, HCPCS modifiers, etc. An example of an
                                                appropriate coding technique is "use CPT xxxxx to
                                                bill this item/service rather than yyyyy." Include
                                                payment issues and payment considerations in the
                                                indications and limitations of coverage section.

 Documentation Requirements 	                   Describe specific information from the medical
                                                records or other pertinent information
                                                that would be required to justify the item/service.
                                                For example, progress notes, pathology report,
                                                certificates of medical necessity (CMN), or
                                                photographs. Give instructions as to how
                                                Electronic Media Claim billers should submit
                                                documentation.

 Utilization Guidelines 	                       Include information concerning the typical or
                                                expected utilization for the service. This is an
                                                optional field.

 Other Comments 	                               Include information not included in other field
                                                sections. There is NO maximum field length.




Carriers’ Policies for Mental Health Services   21                              OEI-03-99-00132
                                                                           APPENDIX C


 Sources of Information and                     List the information sources, pertinent references
 Basis for Decision 	                           (other than national policy) and other clinical or
                                                scientific evidence reviewed in the development of
                                                this policy. Cite, for example: Agency for Health
                                                Care Policy and Research (AHCPR) guidelines,
                                                position papers released by specialty societies or
                                                other sources used during the development of this
                                                policy. Also include the basis for your coverage
                                                decision and references that may apply. This is a
                                                mandatory field.

 Advisory Committee Notes	                      All contractors must include the following
                                                information regarding the development of
                                                the LMRP: the meeting date on which the policy
                                                was discussed with the advisory
                                                committee. This is a mandatory field for those
                                                contractors who hold meetings.

 Start Date of Comment Period	                  Enter the date the LMRP was released for
                                                comment. Use MM/DD/YYYY as the format.
                                                This is a mandatory field.

 End Date of Comment Period 	                   Enter the date the comment period ended. Use
                                                MM/DD/YYYY as the format. This is a
                                                mandatory field.

 Start Date of Notice Period 	                  Enter the date the medical community was notified
                                                about the LMRP. Use MM/DD/YYYY as the
                                                format. When no day is provided, enter 01 as the
                                                day. This is a mandatory field.




Carriers’ Policies for Mental Health Services   22                           OEI-03-99-00132
                                                                                  APPENDIX C


 Revision History 	                                   The revision history includes the revision number,
                                                      the effective date of the revision and an explanation
                                                      of the revisions made to the policy. Any revision to
                                                      LMRP that increase restrictions on coverage
                                                      requires the usual notice and comment period.
                                                      Revisions to utilization guidelines that increase
                                                      restrictions on coverage are also subject to the
                                                      notice and comment period. The revision number
                                                      is a unique identifier that allows users to recognize
                                                      if a policy is changed from its original form. The
                                                      numbering system is entirely up to the contractor
                                                      and is used to catalog the policy for your internal
                                                      use. The revision dates are listed with the most
                                                      recent revision date listed first. Use
                                                      MM/DD/YYYY as the format. This is a
                                                      mandatory field for revisions.


 All LMRPs must include the following paragraph:

 "This policy does not reflect the sole opinion of the contractor or contractor medical director. Although
 the final decision rests with the contractor, this policy was developed in cooperation with advisory
 groups, which includes representatives from [fill in appropriate specialty name]."




Carriers’ Policies for Mental Health Services        23                              OEI-03-99-00132
                                                                              APPENDIX D



        Selected OIG Reports on Medicare Mental Health Services

Nursing Facilities

Medicare Payments for Psychiatric Services in Nursing Homes: A Follow-up, OEI-02-99-00140

Mental Health Services in Nursing Facilities, OEI-02-91-00860

Acute Care and Psychiatric Specialty Hospitals

Review of Outpatient Psychiatric Services Provided by Provena St. Joseph Hospital for the Period
September 1, 1996 through November 30, 1997, A-05-00-00034

Review of Outpatient Psychiatric Services Provided by Tomball Regional Hospital for Fiscal Year
Ended June 30, 1998, A-06-99-00014

Review of Outpatient Psychiatric Services Provided by the Waterbury Hospital for the Fiscal Year
Ending September 30, 1997, A-01-99-00501

Review of Outpatient Psychiatric Services Provided by the Elliot Hospital for the Fiscal Year Ending
June 30, 1998, A-01-99-00502

Ten-State Review of Outpatient Psychiatric Services at Acute Care Hospitals, A-01-99-00507

Review of Outpatient Psychiatric Services Provided by the Danbury Hospital for Fiscal Year Ending
September 30, 1997, A-01-99-00518

Review of Outpatient Psychiatric Services at Psychiatric Hospitals for Calender Year 1998,
A-01-99-00530

Review of Outpatient Psychiatric Services Provided by St. Vincent’s Hospital for Calendar Year
Ended December 31, 1997, A-02-99-01010

Review of Outpatient Psychiatric Services Provided by St. Luke’s-Roosevelt Hospital for Calendar
Year Ended December 31, 1997, A-02-99-01016

Review of Outpatient Psychiatric Services Provided by the Franklin Medical Center for the Fiscal Year
Ending September 30, 1996, A-01-98-00503


Carriers’ Policies for Mental Health Services     24                               OEI-03-99-00132
                                                                             APPENDIX D


Psychiatric Outpatient Services: The Newton-Wellesley Hospital, A-01-98-00506

Psychiatric Outpatient Services: The Arbour-HRI Hospital, A-01-97-00526

Partial Hospitalization Programs

Review of Partial Hospitalization Services and Fiscal Year 1997 Cost Report - New Center
Community Mental Health Services, Detroit, Michigan, A-05-00-00004

Results of Review of America’s Behavioral Health Center, A-04-98-01192

Audit of the Medicare Partial Hospitalization Program at Mental Health Corporation of Denver, A-07-
98-01263

Five-State Review of Partial Hospitalization Programs at Community Mental Health Centers,
A-04-98-02145

Review of Partial Hospitalization Services Provided Through Community Mental Health Centers, A-
04-98-02146

Review of St. Francis Behavioral Health Center’s Partial Hospitalization Program,
A-04-97-02141

Review of St. Jude Behavioral Health Center’s Partial Hospitalization Program, A-04-97-02142

Review of Partial Hospitalization Services and Audit of Medicare Cost Report for Community
Behavioral Services, a Florida Community Mental Health Center, A-04-96-02118 and
A-04-96-02124

Other Outpatient Settings: Practitioners’ Offices, Community Mental Health
Centers, Beneficiaries’ Homes, and Custodial Care Facilities

Medicare Part B Payments for Mental Health Services, OEI-03-99-00130




Carriers’ Policies for Mental Health Services     25                                OEI-03-99-00132
                                                                       APPENDIX



                                       Comments on the Draft Report





Carriers’ Policies for Mental Health Services       26                   OEI-03-99-00132
                                                             APPENDIX




                                     Comments from the

                          Centers for Medicare & Medicaid Services





Carriers’ Policies for Mental Health Services   27               OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   28     OEI-03-99-00132
                                                            APPENDIX




                                 Comments from the

                      American Association for Geriatric Psychiatry





Carriers’ Policies for Mental Health Services   29              OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   30     OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   31     OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   32     OEI-03-99-00132
                                                                   APPENDIX




                                          Comments from the

                                    American Psychiatric Association





Carriers’ Policies for Mental Health Services      33                   OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   34     OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   35     OEI-03-99-00132
                                                     APPENDIX




Carriers’ Policies for Mental Health Services   36     OEI-03-99-00132
                                ACKNOWLEDGMENTS


This report was prepared under the direction of Robert A. Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia, PA and Linda M. Ragone, Deputy Regional Inspector
General. Other principal Office of Evaluation and Inspections staff who contributed include:

Amy Sernyak, Project Leader                           Bambi Straw, Program Specialist
Lauren McNulty, Lead Analyst




Carriers’ Policies for Mental Health Services   37                              OEI-03-99-00132
